                                                        NATIONAL SCIENCE FOLTNDATION
                                                         OFFICE OF INSPECTOR GENERAL
                                                          OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM


I
    Case Number: A06100047                                                                    Page 1 of 1
                                                                                                                 I
                  An allegation of plagiarism was raised within an NSF proposal', of material contained within
          a second NSF proposal2.Upon further examination of the proposal3,one additional source ofuncited
          material was found.4The subject5was contacted and responded to the allegation.Evidence indicated
          that the Subject and his former post doctoral student6had collaborated with at least one author7of
          the second NSF proposal. (The post doctoral student served as an intermediarybetween the Subject
          and one of the authors8of the other proposal.) The collaboration between the Subject and the authors
          of the other proposal ended when the other author9joined the collaboration, overlapping for only a
          short period. While evidence did indicate that material from a second source was also included in
          the NSF proposal without proper attribution, the scope of the copied text was limited. We wrote to
          the subject reminding him to provide proper attribution to any copied text.

                    Accordingly, this case is closed.




NSF OIG Form 2 (1 1/02)
